               Toll-Free Account Assistance to Taxpayers
              Is Professional and Timely, and the Quality of
                   Information Provided Has Improved

                                  December 2004

                       Reference Number: 2005-40-018




This report has cleared the Treasury Inspector General for Tax Administration disclosure
review process and information determined to be restricted from public release has been
                              redacted from this document.
                                               DEPARTMENT OF THE TREASURY
                                                    WASHINGTON, D.C. 20220



INSPECTOR GENERAL
     for TAX
  ADMINISTRATION




                                                    December 15, 2004



      MEMORANDUM FOR COMMISSIONER, WAGE AND INVESTMENT DIVISION


      FROM:                          Gordon C. Milbourn III
                                     Assistant Inspector General for Audit
                                     (Small Business and Corporate Programs)

      SUBJECT:                        Final Audit Report - Toll-Free Account Assistance to Taxpayers
                                      Is Professional and Timely, and the Quality of Information
                                      Provided Has Improved (Audit # 200440036)


      This report presents the results of our review of the Internal Revenue Service’s (IRS)
      toll-free telephone assistance program for account questions. The overall objective of
      this review was to determine whether taxpayers received quality service when calling
      the IRS Toll-Free Customer Service telephone number (1-800-829-1040) to ask an
      account-related question during the 2004 Filing Season.1 Specifically, we determined
      the quality of the service (taxpayer experiences) and the responses taxpayers received
      when asking an account-related question.

      Each year, millions of taxpayers contact the IRS seeking assistance in understanding
      the tax law and meeting their tax obligations by either calling the various toll-free
      telephone assistance lines, accessing the IRS Internet web site, or visiting an IRS Tax
      Assistance Center. During the 2004 Filing Season, IRS Customer Service
      Representatives (CSR) answered over 3.3 million calls for taxpayers with questions
      about their accounts. An account inquiry is a contact relating to a taxpayer’s tax
      account which deals with entity information, the processing of tax returns, or corrections
      of subsequent errors.
      The quality of service provided to taxpayers remained among the major management
      challenges the IRS faced in Fiscal Year (FY) 2004. One of the IRS’ major strategies for
      FY 2004 was to reduce taxpayer burden by improving the quality and efficiency of
      service delivery. The aim was to provide prompt and courteous responses to all
      requests for assistance. The IRS’ goal was to make its toll-free telephone operation a

      1
          The period from January through mid-April when most individual income tax returns are filed.
                                                       2

“world-class customer service organization” that provided taxpayers with accessible and
accurate tax assistance.
From a judgmental sample of 264 calls monitored during the period April 12 through
May 3, 2004, we determined that CSRs treated taxpayers professionally 99 percent of
the time and provided timely service 94 percent of the time. In addition, 86 percent of
taxpayers (226 of 264 monitored calls) received accurate answers to their tax account
questions. Using a statistical sample during the same period reviewed, the IRS
reported 1002 and 97 percent, respectively, for Professionalism and Timeliness, and
90 percent for Customer Accuracy. The IRS defines Customer Accuracy as giving the
correct answer with the correct resolution.
In our sample, CSRs did not always follow IRS procedures, and this prevented
38 (14 percent) of 264 taxpayers from receiving the correct answer or resolution. We
identified (scored) the response as inaccurate if the response provided was either
incorrect or incomplete.
We also identified an additional 14 (5 percent) of the 264 calls for which the CSR did not
ask the caller all 5 required authentication probe questions. IRS guidelines require the
CSR to fully authenticate the caller (with five required identification probe questions) as
authorized to receive the information before providing an answer to the taxpayer’s
question. In addition, IRS guidelines currently allow CSRs discretion in asking
additional authentication probes if the address or date of birth does not match the
information on the IRS’ systems. Therefore, the taxpayer must respond correctly to four
of five required probes without the CSR asking any additional probe questions.
We recommended the Commissioner, Wage and Investment Division, issue a
Servicewide Electronic Research Program alert to all users of Internal Revenue Manual
(IRM) 21.1.3.2, reminding them of the revised IRM guidelines concerning taxpayer
authentication and the need for caution when authenticating taxpayers. We also
recommended training be provided to the CSRs on taxpayer authentication, with
particular emphasis on high-risk authentication, during annual Continuing Professional
Education.
Management’s Response: IRS management agreed with the two recommendations in
the report and has already initiated appropriate corrective actions. IRS management
also agreed with our comment that some IRS improvement can be attributed to the
additional training the IRS conducted as a result of our report last year. The IRS noted
that although the IRS and the Treasury Inspector General for Tax Administration used
two different approaches to sampling calls, the results of the reviews were very close.
However, the IRS continues to disagree with our position on reporting the defects
resulting from missed or inadequate verification questions and quoted the response to
the prior year’s report.3 Accordingly, the IRS disagreed with our Reliability of


2
 This percentage is rounded up from the 99.9 percent the IRS reported.
3
 Toll-Free Account Assistance to Taxpayers Is Professional and Timely, but Improvement Is Needed in the
Information Provided (Reference Number 2004-40-057, dated February 2004).
                                            3

Information outcome measure related to 14 taxpayer accounts. Management’s
complete response to the draft report is included as Appendix VII.
Office of Audit Comment: The IRS does not consider not adequately authenticating the
taxpayer as an error that directly affects the taxpayer. However, we continue to believe
providing information to an individual without fully authenticating him or her increases
the risk that a taxpayer’s confidential information could be disclosed to an unauthorized
individual. This could have a direct impact on the taxpayer. Therefore, we believe
these errors should be reported in Customer Accuracy. We also believe not including
this information in the reported accuracy rate may affect external stakeholders’
assessment of the IRS’ performance. As a result, we believe our outcome measure
addressing Reliability of Information is appropriate.
In addition, we believe requiring the use of the high-risk questions is warranted to
reduce the risk of disclosing confidential information. We continue to be concerned with
this item because of the Wage and Investment Division’s 69 percent accuracy rate for
high-risk authentication. The necessity of the additional questions can be explained to
the taxpayer and the additional questions would not be considered a burden considering
the consequences of unauthorized disclosure.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Michael R. Phillips, Assistant Inspector General for Audit (Wage and Investment Income
Programs), at (202) 927-0597.
            Toll-Free Account Assistance to Taxpayers Is Professional and Timely,
                     and the Quality of Information Provided Has Improved




                                                 Table of Contents


Background ............................................................................................... Page 1
Customer Service on the Toll-Free Telephone Lines for
Callers With Account Questions Has Improved......................................... Page 6
Taxpayer Authentication Needs Improvement .......................................... Page 9
         Recommendation 1:.......................................................................Page 13
         Recommendation 2:.......................................................................Page 14

Appendix I – Detailed Objective, Scope, and Methodology....................... Page 15
Appendix II – Major Contributors to This Report ....................................... Page 16
Appendix III – Report Distribution List ....................................................... Page 17
Appendix IV – Outcome Measures............................................................ Page 18
Appendix V – Embedded Quality............................................................... Page 20
Appendix VI – Comparison of Treasury Inspector General for Tax
Administration and Internal Revenue Service Results of Monitored
Calls in Wage and Investment Division Applications for Account Calls
Product Lines ............................................................................................ Page 22
Appendix VII – Management’s Response to the Draft Report ................... Page 23
        Toll-Free Account Assistance to Taxpayers Is Professional and Timely,
                 and the Quality of Information Provided Has Improved

                                Each year, millions of taxpayers contact the Internal
Background
                                Revenue Service (IRS) seeking assistance in understanding
                                the tax law and meeting their tax obligations by either
                                calling the various toll-free telephone assistance lines,
                                accessing the IRS Internet web site, or visiting an IRS Tax
                                Assistance Center. Although accessing the IRS web site is
                                the single most frequent means of contact with the IRS for
                                taxpayers, the second most frequent means is calling the
                                toll-free telephone assistance lines.
                                During the 2004 Filing Season,1 IRS Customer Service
                                Representatives (CSR) answered over 3.3 million calls for
                                taxpayers with questions about their accounts when calling
                                the IRS Toll-Free Customer Service telephone number
                                (1-800-829-1040). An account inquiry is a contact relating
                                to a taxpayer’s tax account which deals with entity
                                information, the processing of tax returns, or corrections of
                                subsequent errors.
                                According to the 2004 IRS Oversight Board Annual Report,
                                91 percent of Americans surveyed viewed the IRS service
                                of providing a toll-free telephone number to answer their
                                questions as either very or somewhat important to them.
                                The Board stated that the IRS has made considerable strides
                                in improving customer service, but cautioned that it would
                                be highly imprudent to suggest that IRS customer service
                                has reached an acceptable level and advised the IRS to
                                constantly work to improve customer service by measuring
                                its progress, recognizing emerging trends, and taking
                                advantage of new technology. Stakeholders interviewed by
                                the Board acknowledged the complexity of the Federal tax
                                code and urged the IRS to seek ways to simplify
                                administrative and regulatory processes to make them work
                                more efficiently.
                                The quality of service provided to taxpayers remained
                                among the major management challenges the IRS faced in
                                Fiscal Year (FY) 2004. One of the IRS’ major strategies for
                                FY 2004 was to reduce taxpayer burden by improving the
                                quality and efficiency of service delivery. The aim was to
                                provide prompt and courteous responses to all requests for

                                1
                                  The period from January through mid-April when most individual
                                income tax returns are filed.
                                                                                             Page 1
Toll-Free Account Assistance to Taxpayers Is Professional and Timely,
         and the Quality of Information Provided Has Improved

                        assistance. The IRS’ goal was to make its toll-free
                        telephone operation a “world-class customer service
                        organization” that provided taxpayers with accessible and
                        accurate tax assistance.
                        When calling the toll-free telephone number with a tax
                        account-related question(s), the taxpayer uses an automated
                        menu. The taxpayer is provided, in English, four touchtone
                        main menu options with secondary options:
                        1. Preparing or filing individual income tax returns. This
                           option provides the taxpayer with a second automated
                           menu from which to choose the following options:2
                           (1) ordering tax forms or publications, (2) finding
                           addresses to mail payments or a tax return to the IRS,
                           (3) finding the amount of his or her Advanced Child Tax
                           Credit, or (4) getting help with other tax questions.
                        2. Requesting information on a tax refund or personal tax
                           account. This option provides the taxpayer with a
                           second automated menu from which to choose the
                           following options: (1) requesting refund information, or
                           (2) getting answers to personal account questions.
                        3. Using the business and specialty tax line or obtaining
                           the address for the IRS Internet web site.
                        4. Repeating the above options.
                        If the taxpayer does not select an option or is calling from a
                        rotary telephone and is unable to select a touchtone option,
                        the same script is repeated providing voice response
                        options. If the taxpayer selects an invalid option, he or she
                        is transferred to an IRS employee (screener), who screens
                        and transfers the call to the appropriate CSR to answer the
                        taxpayer’s question.
                        CSRs answer tax account inquiries and are responsible for
                        providing taxpayers with information on the status of their
                        returns/refunds and for resolving the majority of issues and
                        questions to settle their accounts. The IRS defines an
                        account call as any call:



                        2
                            Outside the filing season, the automated menu provides fewer options.
                                                                                          Page 2
Toll-Free Account Assistance to Taxpayers Is Professional and Timely,
         and the Quality of Information Provided Has Improved

                        •   Relating to a taxpayer account, both individual and
                            business accounts.
                        •   Regarding entity information (i.e., taxpayer’s or
                            spouse’s name, address, Social Security Number, filing
                            status, and tax year), the processing of a tax return,
                            corrections of errors found during processing, and
                            corrections resulting from adjustments or examination
                            assessments.
                        •   Regarding procedural issues (e.g., where to file a return,
                            when and where to make payments).
                        •   Relating to any other questions on refunds or
                            procedures.
                        To ensure quality service, the IRS groups or categorizes
                        calls by topics called Applications and by Wage and
                        Investment (W&I) Division taxpayers and Small
                        Business/Self-Employed (SB/SE) Division taxpayers.3
                        There are a total of nine Applications for the General
                        Account Calls Product Line. This review focused only on
                        the 4 W&I Division Applications at the 16 W&I Division
                        toll-free call sites. (See Appendix VI for the Applications
                        we monitored.)
                        CSRs are trained and certified for each current filing season
                        on specific Applications. For example, if an individual
                        taxpayer calls to find out where to mail a tax return, the call
                        would be routed to a CSR that has been trained to handle
                        IRS procedural issues for the W&I Division. If a business
                        taxpayer calls to find out the taxes due on a business
                        account, the call would be routed to a CSR that handles
                        balance-due questions for the SB/SE Division.
                        To measure its customer service, the IRS uses a quality
                        measurement system called Embedded Quality (EQ), which
                        links employee performance to organizational results related
                        to the quality of customer service. To accomplish this, IRS
                        management listens to a statistical sample of live taxpayer
                        calls from among the Applications and identifies (scores)
                        3
                          The W&I Division serves taxpayers who earn wages and have
                        investment income. The SB/SE Division serves self-employed
                        taxpayers and small businesses, including corporations and partnerships
                        with assets of $10 million or less.
                                                                                        Page 3
Toll-Free Account Assistance to Taxpayers Is Professional and Timely,
         and the Quality of Information Provided Has Improved

                        the calls using 93 attributes4 that are divided into 5 quality
                        measures:
                        •   Customer Accuracy.
                        •   Regulatory Accuracy.
                        •   Procedural Accuracy.
                        •   Professionalism.
                        •   Timeliness.
                        The Customer Accuracy, Professionalism, and Timeliness
                        measures are reported to the IRS Commissioner as part of
                        the IRS’ balanced measures.5 The Regulatory Accuracy and
                        Procedural Accuracy measures are reported internally to
                        IRS management to identify trends and training
                        opportunities.
                        The Customer Accuracy measure is also reported externally
                        to IRS stakeholders, e.g., the Congress and the Government
                        Accountability Office, and as part of the reporting
                        requirement of the Government Performance and Results
                        Act of 1993 (GPRA).6 The GPRA requires that all Federal
                        agencies have appropriate quantitative performance
                        measures. (See Appendix V for details of the EQ.)
                        This report presents the results of our second review of the
                        IRS’ toll-free tax account assistance to taxpayers. In the
                        prior review,7 we evaluated tax account assistance by
                        monitoring a judgmental sample of 191 tax account
                        telephone calls from April 21 through May 16, 2003. We
                        reported that CSRs treated taxpayers professionally for
                        99 percent of the calls and provided timely service for
                        83 percent of the calls. In addition, 78 percent of taxpayers
                        (149 of 191 monitored calls) received accurate answers to
                        their account questions. Using a statistical sample during

                        4
                          Attributes identify specific aspects of a call that need to be considered
                        when measuring the quality of customer service.
                        5
                          Three measures (employee satisfaction, customer satisfaction, and
                        business results) the IRS uses to measure organizational and employee
                        performance.
                        6
                          Pub. L. No. 103-62, 107 Stat. 285 (codified as amended in scattered
                        sections of 5 U.S.C., 31 U.S.C., and 39 U.S.C.).
                        7
                          Toll-Free Account Assistance to Taxpayers Is Professional and
                        Timely, but Improvement Is Needed in the Information Provided
                        (Reference Number 2004-40-057, dated February 2004).
                                                                                           Page 4
Toll-Free Account Assistance to Taxpayers Is Professional and Timely,
         and the Quality of Information Provided Has Improved

                        the same period we reviewed, the IRS reported rates of 100
                        and 97 percent, respectively, for Professionalism and
                        Timeliness, and 88 percent for Customer Accuracy. In our
                        sample, CSRs did not always follow IRS procedures. This
                        prevented 22 percent of the taxpayers (42 of 191) from
                        receiving the correct answer or resolution. We also
                        identified an additional 12 of the 191 calls in which the CSR
                        did not ask the caller all 5 required identification probe
                        questions.
                        IRS management partially agreed to our recommendations.
                        They agreed that most account errors negatively affecting
                        Customer Accuracy are caused by the incomplete research
                        or inaccurate interpretation of account reference materials.
                        They also agreed that the Internal Revenue Manual (IRM)
                        and Account Resolution Guide could be improved to make
                        it easier for the CSRs to understand and comply with
                        authentication procedures. IRS management developed
                        Continuing Professional Education (CPE) training for
                        FY 2004 that addressed effective and complete use of IRM
                        procedures and guidelines.
                        However, IRS management did not agree with our position
                        regarding the reporting of defects related to the
                        authentication process, indicating that the IRS’
                        classification of this type of defect as a Regulatory
                        Accuracy defect does not impact the importance that IRS
                        management attaches to taking the proper steps during the
                        authentication process. IRS management disagreed with our
                        assumption that a defect in the authentication process has a
                        direct impact on the taxpayer and should be classified as if
                        an unauthorized disclosure occurred. IRS management also
                        disagreed with requiring the use of the high-risk questions.
                        For the current audit, we reviewed tax account assistance by
                        monitoring a judgmental sample of 264 tax account
                        telephone calls from April 12 through May 3, 2004. This
                        review was performed at the Atlanta Accounts Management
                        Center in Atlanta, Georgia, and the Centralized Quality
                        Review Site in Philadelphia, Pennsylvania. The audit was
                        conducted in accordance with Government Auditing
                        Standards. Detailed information on our audit objective,
                        scope, and methodology is presented in Appendix I. Major
                        contributors to the report are listed in Appendix II.
                                                                              Page 5
          Toll-Free Account Assistance to Taxpayers Is Professional and Timely,
                   and the Quality of Information Provided Has Improved

                                  IRS employees are courteous and respectful, and spend an
Customer Service on the
                                  appropriate amount of time with taxpayers when answering
Toll-Free Telephone Lines for
                                  their tax account questions. Using a judgmental sample of
Callers With Account Questions
                                  264 monitored calls8 and the IRS’ EQ attributes to rate the
Has Improved
                                  calls, we determined employees provided professional and
                                  timely service. In addition, CSRs provided taxpayers with
                                  accurate answers to their tax account questions for
                                  86 percent (226 of 264) of the calls monitored. The IRS
                                  achieved this level of accuracy, for the most part, because
                                  CSRs are thoroughly and completely researching IRS
                                  computer systems to answer taxpayer tax account questions.
                                  (See Appendix VI for a comparison of the calls monitored
                                  by the Treasury Inspector General for Tax Administration
                                  [TIGTA] and the IRS by Application for the same time
                                  period, April 12 through May 3, 2004.)
                                  CSRs were professional when responding to taxpayers
                                  Using the IRS EQ attributes to rate the monitored CSR calls
                                  on professionalism, we determined CSRs provided
                                  professional service for 99 percent (1,378 of 1,387) of
                                  applicable opportunities.9 The IRS defines professional
                                  service as promoting a positive image of the IRS by using
                                  effective communication techniques.
                                  For the calls monitored, the employees provided a
                                  professional greeting, communicated with clear and
                                  appropriate language, used courteous and respectful tones,
                                  listened to the taxpayers in an effective manner to maximize
                                  understanding, and apologized for IRS errors when
                                  appropriate. In addition, when appropriate, they provided
                                  taxpayers with an explanation of why a series of questions
                                  are required. For the same time period, the IRS reported
                                  that CSRs followed procedures for providing professional
                                  service for 100 percent10 (4,147 of 4,153) of the
                                  opportunities. The IRS’ Professionalism goal for CSRs was
                                  99 percent for FY 2004.

                                  8
                                    CSRs answered taxpayers’ tax account-related questions for 264 of the
                                  290 CSR calls monitored. The remaining 26 calls consisted of 14 tax
                                  law calls and 12 transfers. We were unable to follow the taxpayers
                                  through transfers and did not include tax law accuracy results.
                                  9
                                    Each call is rated for various attributes, known as opportunities. Not
                                  every attribute is applicable to every call.
                                  10
                                     This percentage is rounded up from the 99.9 percent the IRS reported.
                                                                                                  Page 6
Toll-Free Account Assistance to Taxpayers Is Professional and Timely,
         and the Quality of Information Provided Has Improved

                        CSRs were timely when responding to taxpayers
                        Using the IRS EQ attributes to rate the monitored CSR calls
                        on timeliness, we determined the CSRs were timely for
                        94 percent (419 of 445) of the opportunities. The IRS
                        defines timeliness as resolving an issue in the most efficient
                        manner through the use of proper workload management
                        and time use techniques. Timeliness is measured by factors
                        or actions that are controllable by the CSRs, including
                        whether the employee controlled unrelated or unnecessary
                        dialogue initiated by the taxpayer and restrained from
                        initiating extraneous dialogue with the taxpayer. An
                        additional timeliness attribute measures whether the
                        employee placed the taxpayer on hold for research purposes
                        for an appropriate length of time based on the complexity of
                        the issue.
                        For the same time period, the IRS reported that its CSRs
                        followed procedures for providing timely service for
                        97 percent (1,397 of 1,434) of the opportunities. The IRS’
                        Timeliness goal for CSRs was 98 percent for FY 2004.
                        We could not determine how long it took taxpayers to get
                        answers to all their questions, i.e., from the time they were
                        connected to the IRS to the time the call ended. The IRS
                        toll-free telephone systems have the ability to trace one call
                        from the time the IRS’ telephone service provider delivers
                        the call to the IRS to the time the call is terminated, but the
                        IRS does not do so because of the large volume of calls it
                        receives. The IRS does, however, monitor key segments in
                        the “life” of a call (e.g., the segment from the time a CSR is
                        connected to the taxpayer to the time the taxpayer was
                        transferred or the call ended).
                        We could determine whether CSRs provided timely service
                        to each taxpayer on the segments of the calls we monitored,
                        including hold times. During our monitoring,
                        156 (59 percent) of the 264 callers were placed on hold
                        during the course of the conversation. In most cases, the
                        hold time was warranted and lasted less than 10 minutes.
                        The IRS’ approach to hold time is that CSRs should use
                        hold time commensurate with the complexity of the issue
                        being resolved. Taxpayers are encouraged to hold while the
                        CSR conducts research and performs account adjustments
                                                                                Page 7
Toll-Free Account Assistance to Taxpayers Is Professional and Timely,
         and the Quality of Information Provided Has Improved

                        as an assurance that their issue is fully resolved. This is
                        done to minimize the potential of a taxpayer needing to call
                        back at another time to achieve final resolution.
                        The IRS evaluates the CSRs on the appropriate use of hold
                        time as part of the quality review process. For the calls
                        monitored, the taxpayers were on hold as follows:
                        •    Seventy-eight callers were on hold for more than
                             25 percent but less than or equal to 50 percent of the
                             total call time. For example, 1 taxpayer’s total call time
                             was 18 minutes from the time the CSR answered the call
                             to the time the taxpayer hung up. During this
                             18 minute call segment, the taxpayer was placed on hold
                             for 9 minutes. This call was rated appropriate for hold
                             time.
                        •    Forty-four callers were on hold less than or equal to
                             25 percent of the total call time. For example,
                             1 taxpayer in this group was on the phone for
                             14 minutes. Of this 14 minute call, the taxpayer was
                             placed on hold for 3 minutes. This call was rated
                             appropriate for hold time.
                        •    Thirty callers were on hold for more than 50 percent but
                             less than or equal to 75 percent of the total call time.
                             For example, 1 taxpayer’s total call time was
                             32 minutes. During this 32 minute call, the taxpayer
                             was placed on hold for 22 minutes (2 hold times of 11
                             minutes each). This call was rated not appropriate for
                             hold time because the CSR did not periodically advise
                             the taxpayer that research was continuing during the
                             hold periods.
                        •    Four callers were on hold for greater than 75 percent of
                             the total call time. In this group, 1 taxpayer was on the
                             phone for 6 minutes with the CSR. Of these 6 minutes,
                             the taxpayer was on hold for 5 minutes. This call was
                             rated appropriate for hold time.
                        CSRs provided accurate answers to 86 percent of tax
                        account questions11

                        11
                          Only calls in which the CSR provides an answer to the taxpayer’s
                        question are rated for accuracy.
                                                                                      Page 8
         Toll-Free Account Assistance to Taxpayers Is Professional and Timely,
                  and the Quality of Information Provided Has Improved

                                 Using IRS EQ attributes to rate the monitored CSR calls on
                                 accuracy, we determined the CSRs provided complete and
                                 correct answers to 86 percent (226 of 264) of the monitored
                                 calls. The IRS considers a response “complete and correct”
                                 when the CSR obtains sufficient information to answer the
                                 question and gives a correct and complete answer. The
                                 IRS’ definition of accuracy does not take into consideration
                                 any additional issues or procedures that do not directly
                                 affect the taxpayer. The IRS’ results from a sample of 804
                                 account calls monitored during the same time period and for
                                 the same account Applications indicated a Customer
                                 Accuracy rate of 90 percent (723 of 804) of the calls. The
                                 IRS’ account Customer Accuracy goal for CSRs was
                                 90 percent for FY 2004.
                                 During our prior review, we recommended that CSRs
                                 receive additional training on the effective and complete use
                                 of the IRM procedures and guidelines to ensure that
                                 taxpayers are provided complete and correct answers to tax
                                 account questions. The IRS agreed to provide this training
                                 during its FY 2004 CPE, so we are making no additional
                                 recommendations at this time.
                                 The IRS does not consider it a direct impact to the taxpayer
Taxpayer Authentication Needs
                                 when the CSR does not ask all the required identification
Improvement
                                 probe questions or does not correctly complete the taxpayer
                                 authentication probe. Therefore, the IRS does not include
                                 this as an error in the calculation of Customer Accuracy and
                                 when reporting Customer Accuracy externally to
                                 stakeholders. We reported this in our last audit of account
                                 quality, and the IRS disagreed with our recommendation to
                                 report these as Customer Accuracy errors. Again, we
                                 believe the IRS should consider not fully authenticating a
                                 taxpayer’s identity to be a Customer Accuracy error.
                                 The IRM provides guidelines to ensure the CSR fully
                                 authenticates the caller as authorized to receive the
                                 information.12 The CSR must probe (question) the caller
                                 regarding each taxpayer’s:
                                          (1) Taxpayer Identification Number.13

                                 12
                                    The CSR must follow certain procedures to authenticate a third-party
                                 designee.
                                 13
                                    A nine-digit number assigned to taxpayers for identification purposes.
                                                                                                  Page 9
Toll-Free Account Assistance to Taxpayers Is Professional and Timely,
         and the Quality of Information Provided Has Improved

                                (2)   Name.
                                (3)   Address.
                                (4)   Date of birth.
                                (5)   Filing status.
                        The IRS clarified its IRM in March 2004 to state that if the
                        taxpayer’s identification number and name do not match
                        IRS records,14 the CSR must not provide taxpayer
                        information to the caller and should advise the caller to call
                        back with accurate information. If the caller’s responses to
                        either address or date of birth do not match the IRS’
                        information, the CSR may ask additional questions (referred
                        to as high-risk questions) to help authenticate the caller;
                        however, the CSR is not required to ask additional
                        questions. If the caller cannot provide the correct filing
                        status used to file the return in question, the CSR must ask
                        two or more additional questions to authenticate the caller
                        as someone eligible to receive information about the
                        account.
                        Not asking one of the five required probes for a caller is
                        considered a disclosure attribute not met and is scored as a
                        Regulatory error. This Regulatory error is reported
                        internally, but it is not considered in the calculation for
                        Customer Accuracy. The IRS does not consider this error
                        as directly affecting the taxpayer since the taxpayer received
                        a correct answer with the correct resolution.
                        For an additional 15 (6 percent) of the 264 calls monitored,
                        the CSR did not follow guidelines and did not ask the caller
                        the minimum required probes. However, 14 of the 15 calls
                        were rated correct for Customer Accuracy, even though the
                        CSR did not properly ask all the required probes. For the
                        14 calls, the following are the results of the authentication
                        probes:
                        •    Five callers were not asked their date of birth.
                        •    Four callers were not asked their filing status.


                        14
                          The CSR accesses and verifies taxpayer data via the Integrated Data
                        Retrieval System (IDRS). The IDRS is the IRS computer system
                        capable of retrieving or updating stored information; it works in
                        conjunction with a taxpayer’s account records.
                                                                                      Page 10
Toll-Free Account Assistance to Taxpayers Is Professional and Timely,
         and the Quality of Information Provided Has Improved

                        •    Three callers were not asked additional authentication
                             probes when necessary, such as the spouse’s date of
                             birth, the amount of income reported on the last return,
                             or the tax due on the last return.
                        •    Two callers were not asked multiple required probes
                             (one caller was not asked for name, address, date of
                             birth, and filing status; the other caller was not asked
                             address, date of birth, and filing status).
                        In all instances, the CSR disclosed information to the caller
                        about the account. Including these errors as Customer
                        Accuracy errors would reduce the Customer Accuracy
                        reported above from 86 percent (226 of 264) to 80 percent
                        (212 of 264) of the calls monitored.
                        During the same period as our review, the IRS monitored
                        804 calls and reported 90 percent (723 of 804 opportunities)
                        Customer Accuracy. Had the IRS considered disclosure to
                        affect its Customer Accuracy, the IRS’ Customer Accuracy
                        would have been reduced from 90 percent to 85 percent
                        (687 of 804 opportunities) for the calls sampled between
                        April 12 and May 3, 2004.15 This would have provided a
                        more accurate portrayal of the IRS’ level of customer
                        service.
                        In addition, the W&I Division’s accuracy rate for high-risk
                        authentication is only 69 percent for the period January
                        through June 2004, while other attributes related to
                        disclosure for the same time period are in the 83 to
                        100 percent range. This attribute measures if the CSR
                        followed the high-risk criteria per the IRM guidelines
                        before providing confidential tax information. For those
                        cases where additional authentication is warranted, the CSR
                        must verify two or more additional items from the
                        taxpayer’s account or tax return, such as the number of
                        exemptions claimed on the last return or the return in
                        question or children’s dates of birth. No alerts have been
                        issued advising CSRs of any concerns on this attribute.
                        Annual CPE refresher training also did not specifically
                        address high-risk authentication.

                        15
                          This reduction is the result of reducing the number of correct calls
                        (723) by the number of calls (36) which the IRS reported as regulatory
                        errors with respect to taxpayer authentication (723 - 36 = 687).
                                                                                      Page 11
Toll-Free Account Assistance to Taxpayers Is Professional and Timely,
         and the Quality of Information Provided Has Improved

                        CSRs are responsible for knowing with whom they are
                        speaking and the purpose of the call/contact. They must
                        authenticate each caller as someone entitled to receive
                        information about a tax return or tax account. Only after
                        authenticating the taxpayer or third-party designee should
                        the CSR disclose information about the account to the
                        caller.
                        Providing information to an individual without fully
                        authenticating him or her increases the risk that a taxpayer’s
                        confidential information has been disclosed to an
                        unauthorized individual. This could have a direct impact on
                        the taxpayer. It is the responsibility of all IRS employees to
                        protect confidential taxpayer information and to understand
                        what is and what is not an authorized disclosure under the
                        provisions of the law.
                        We believe that not adequately authenticating the caller
                        prior to providing tax information should be an error
                        considered to affect the taxpayer and reported in Customer
                        Accuracy. Not adequately authenticating the taxpayer may
                        be viewed by a court as either carelessness or a failure to
                        exercise due care. The burden is on the IRS employee to
                        ensure that the disclosure is authorized. Therefore, under
                        such circumstances, a court could find that the employee
                        made an unauthorized disclosure of a tax return(s) or return
                        information.
                        We understand that the IRS believes that Customer
                        Accuracy should reflect only the accuracy rate of the
                        answers to the account questions and that EQ was designed
                        to accomplish this. We believe not including authentication
                        error information in the reported accuracy rate may affect
                        stakeholders’ assessment of the IRS’ performance. If the
                        IRS chooses not to include this error in its Customer
                        Accuracy when reporting results externally, it should
                        qualify the results by stating that errors made when
                        authenticating the taxpayer are not included in Customer
                        Accuracy.
                        In addition, we continue to believe that if any information
                        provided by the taxpayer during the identification probes
                        does not match the information the IRS has in its records
                        (the first four probes), the IRS employee should be required
                                                                              Page 12
Toll-Free Account Assistance to Taxpayers Is Professional and Timely,
         and the Quality of Information Provided Has Improved

                        to go to high-risk questions. The IRM and the Account
                        Resolution Guide currently allow the CSR discretion in
                        asking additional authentication probes when either the
                        address or date of birth does not match the information on
                        the IRS’ systems. The IRS believes that asking a taxpayer
                        more questions might cause additional taxpayer burden.
                        However, we believe the taxpayer would understand the
                        necessity of additional questions if it were clearly explained
                        that the IRS is doing its utmost to ensure the confidentiality
                        of the taxpayer’s information.
                        During our prior review, we recommended strengthening
                        the IRM and Account Resolution Guide to ensure that all
                        required probes are asked and verified and that the CSRs are
                        required to go to the high-risk questions when information
                        in the IRS systems does not match a caller’s information.
                        Although the IRS disagreed with our position to require
                        CSRs to go to the high-risk questions, we are not making a
                        recommendation regarding mandatory use of high-risk
                        questions since our recommendation was included in our
                        prior audit of account quality.
                        Recommendations
                        The Commissioner, W&I Division, should:
                        1. Issue a Servicewide Electronic Research Program
                           quality alert to all users of IRM 21.1.3.2, reminding
                           them of the revised IRM guidelines concerning taxpayer
                           authentication and the need for caution when
                           authenticating taxpayers.
                        Management’s Response: IRS management issued a
                        Servicewide Electronic Research Program quality alert to
                        remind all users of IRM 21.1.3.2 of the revised guidelines
                        on September 27, 2004.


                        2. Provide training to CSRs on taxpayer authentication,
                           with emphasis on high-risk authentication, during
                           annual CPE.
                        Management’s Response: IRS management incorporated a
                        mandatory training module in the annual CPE and all CSRs
                        will be required to receive this module. However, the IRS
                                                                              Page 13
Toll-Free Account Assistance to Taxpayers Is Professional and Timely,
         and the Quality of Information Provided Has Improved

                        continues to disagree with our position on the reporting of
                        the defects resulting from missed or inadequate verification
                        questions and quoted the response to the prior year’s report.
                        Accordingly, the IRS disagreed with our Reliability of
                        Information outcome measure involving 14 taxpayer
                        accounts, which is described in more detail in Appendix IV.
                        Office of Audit Comment: The IRS does not consider not
                        adequately authenticating the taxpayer as an error that
                        directly affects the taxpayer. However, we still believe
                        providing information to an individual without fully
                        authenticating him or her increases the risk that a taxpayer’s
                        confidential information could be disclosed to an
                        unauthorized individual. This could have a direct impact on
                        the taxpayer. Therefore, we believe these errors should be
                        reported in Customer Accuracy. We also believe not
                        including this information in the reported Customer
                        Accuracy rate may affect external stakeholders’ assessment
                        of the IRS’ performance. As a result, we believe our
                        outcome measure addressing Reliability of Information is
                        appropriate.
                        In addition, we continue to believe requiring the use of the
                        high-risk questions is warranted to reduce the risk of
                        disclosing confidential information. We continue to be
                        concerned with this item because of the W&I Division’s
                        69 percent accuracy rate for high-risk authentication. The
                        necessity of the additional questions can be explained to the
                        taxpayer and the additional questions would not be
                        considered a burden considering the consequences of
                        unauthorized disclosure.




                                                                              Page 14
            Toll-Free Account Assistance to Taxpayers Is Professional and Timely,
                     and the Quality of Information Provided Has Improved

                                                                                                        Appendix I


                           Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether taxpayers received quality service
when calling the Internal Revenue Service (IRS) Toll-Free Customer Service telephone number
(1-800-829-1040) to ask an account-related question during the 2004 Filing Season.1
Specifically, we determined the quality of the service (taxpayer experience) and the responses
taxpayers received when asking an account-related question. To accomplish our objective, we:
I.       Identified the program’s goals and measures for providing quality service for
         Fiscal Year 2004 and any concerns raised by the 16 Wage and Investment Division
         toll-free call sites in preparation for the 2004 Filing Season.
II.      Determined the procedures used by the Centralized Quality Review Site and the local call
         sites for incorporating any identified error trends in the current year’s training.
III.     Determined the accuracy and quality of the IRS’ toll-free telephone assistance responses.
         A. Selected a judgmental sample of 290 calls from an estimated population of
            approximately 822,000 toll-free account services provided2 by the IRS for the period
            April 12 through May 3, 2004. We selected a judgmental sample due to limited staff
            resources while using a monitoring schedule that was representative of the IRS’ hours
            of operation at call sites for answering toll-free account questions. Only 264 of
            290 calls were used to report our results because 14 were tax law calls and 12 were
            transferred outside of the monitored Applications. We were unable to follow the
            taxpayers through transfers and did not include tax law accuracy results.
         B. Captured the conversation between the Customer Service Representative (CSR) and
            the caller on the call transcription form and evaluated the CSR’s response by
            researching the Internal Revenue Manual for procedures and regulations and IRS
            computer systems for the taxpayer account information. We input the results onto the
            electronic data input form for each call.
         C. Computed the critical measures for the 264 calls monitored.
IV.      Analyzed the monitored calls to determine the service taxpayers received when calling to
         get answers to tax account questions.
V.       Compared the results to the rates the IRS reported for the same measures during the same
         reporting period.


1
  The period from January through mid-April when most individual income tax returns are filed.
2
  The assistor provides an answer and that is one service provided. If there is another question, then the caller is
transferred to another assistor and an answer is provided; that makes two services provided for the one call.
                                                                                                               Page 15
         Toll-Free Account Assistance to Taxpayers Is Professional and Timely,
                  and the Quality of Information Provided Has Improved

                                                                                Appendix II


                           Major Contributors to This Report

Michael R. Phillips, Assistant Inspector General for Audit (Wage and Investment Income
Programs)
Augusta R. Cook, Director
Paula W. Johnson, Audit Manager
Jackie E. Forbus, Lead Auditor
Grace Terranova, Senior Auditor
Jerry G. Douglas, Auditor
Patricia A. Jackson, Auditor
Andrea R. McDuffie, Auditor
Geraldine S. Vaughn, Auditor




                                                                                         Page 16
        Toll-Free Account Assistance to Taxpayers Is Professional and Timely,
                 and the Quality of Information Provided Has Improved

                                                                            Appendix III


                               Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Wage and Investment Division SE:W
Director, Customer Account Services, Wage and Investment Division SE:W:CAS
Director, Strategy and Finance, Wage and Investment Division SE:W:S
Director, Accounts Management, Wage and Investment Division SE:W:CAS:AM
Director, Joint Operations Center, Wage and Investment Division SE:W:CAS:JOC
Chief Counsel CC
Chief, Performance Improvement, Wage and Investment Division SE:W:S:PI
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaison: Senior Operations Advisor, Wage and Investment Division SE:W:S




                                                                                 Page 17
           Toll-Free Account Assistance to Taxpayers Is Professional and Timely,
                    and the Quality of Information Provided Has Improved

                                                                                               Appendix IV


                                          Outcome Measures

This appendix presents detailed information on the measurable impact that our recommended
corrective actions in this report and the recommended corrective actions from our Fiscal Year
2003 audit report1 will continue to have on tax administration. These benefits will be
incorporated into our Semiannual Report to the Congress.
Type and Value of Outcome Measure:
•   Taxpayer Burden – Actual; 38 taxpayer accounts affected (see page 6).
Methodology Used to Measure the Reported Benefit:
For 38 of the 264 calls monitored, the Customer Service Representative (CSR) did not always
follow Internal Revenue Service (IRS) procedures and this prevented the taxpayer from
receiving the correct answer or resolution. We considered the CSR as answering a taxpayer’s
question correctly if the taxpayer received a correct response or the CSR took the appropriate
action or disposition leading to a correct resolution.
Type and Value of Outcome Measure:
•   Taxpayer Privacy and Security – Potential; 14 taxpayer accounts affected (see page 9).
Methodology Used to Measure the Reported Benefit:
For an additional 15 of the 264 calls monitored, the CSR did not ask the caller the minimum
required probes or the information the taxpayer provided did not match the information on IRS
data systems. For 14 of the 15 calls, Customer Accuracy was rated as correct. In all instances,
the CSR disclosed information to the caller about the account. For the 14 calls, the CSR did not
ask the taxpayer’s date of birth during 5 calls, did not ask additional authentication probes as
necessary during 3 calls, did not ask the taxpayer’s filing status during 4 calls, and did not ask
multiple probes during 2 calls (1 caller was not asked his/her name, address, date of birth, and
filing status; the other caller was not asked address, date of birth, and filing status). Including
these errors in our results would reduce Customer Accuracy from 86 percent (226 of
264 opportunities) to 80 percent (212 of 264 opportunities) of the calls monitored.
Type and Value of Outcome Measure:
Reliability of Information – Actual; 14 taxpayer accounts affected (see page 9).




1
 Toll-Free Account Assistance to Taxpayers Is Professional and Timely, but Improvement Is Needed in the
Information Provided (Reference Number 2004-40-057, dated February 2004).
                                                                                                          Page 18
         Toll-Free Account Assistance to Taxpayers Is Professional and Timely,
                  and the Quality of Information Provided Has Improved

Methodology Used to Measure the Reported Benefit:
For an additional 15 of the 264 calls monitored, the CSR did not ask the minimum required
probes or the information the taxpayer provided did not match the information on IRS data
systems. For 14 of the 15 calls, Customer Accuracy was rated as correct. In all instances, the
CSR disclosed information to the caller about the account. For the 14 calls, the CSR did not ask
the taxpayer’s date of birth during 5 calls, did not ask necessary additional authentication probes
during 3 calls, did not ask the taxpayer’s filing status during 4 calls, and did not ask multiple
probes during 2 calls (1 caller was not asked his/her name, address, date of birth, and filing
status; the other caller was not asked address, date of birth, and filing status). Including these
errors in our results would reduce Customer Accuracy from 86 percent (226 of 264
opportunities) to 80 percent (212 of 264 opportunities) of the calls monitored.
These 14 potential disclosure errors would not be included in the IRS’ reported Customer
Accuracy. The IRS believes that Customer Accuracy should reflect only the accuracy rate of the
answers to the account questions. Including these disclosure errors would reduce Customer
Accuracy. Not including these errors affects the reliability of the information the IRS reports
externally to stakeholders and could affect their assessment of the IRS’ program.




                                                                                            Page 19
           Toll-Free Account Assistance to Taxpayers Is Professional and Timely,
                    and the Quality of Information Provided Has Improved

                                                                                                 Appendix V


                                           Embedded Quality

On October 1, 2002, the Internal Revenue Service (IRS) implemented a revised system for
measuring the quality of taxpayer assistance which links employee performance to
organizational results related to the quality of customer service. The Embedded Quality (EQ)
system replaced the previous “pass/fail” method and uses instead a “defect-per-opportunity”
method. This method was designed to distinguish between wrong answers and procedural
defects that do not affect the accuracy of the answer.
The comprehensive measures include Timeliness, Professionalism, and Accuracy (comprised of
Customer, Regulatory, and Procedural Accuracy). Customer Accuracy reflects whether the
Customer Service Representative (CSR) gave a correct and complete response/resolution to the
taxpayer’s issue. This measurement system was used on the toll-free telephone operations
beginning with the 2003 Filing Season.1
The IRS Centralized Quality Review Site measures the service provided by toll-free telephone
operations’ CSRs by listening to a statistically valid sample of live taxpayer calls from among
the various Applications2 and rating the calls using the EQ system.
In the EQ measurement and calculation process, the measures are calculated using the
percentage correct based on the number of opportunities for defect within each of five “buckets.”
The “buckets” are divided into Timeliness, Professionalism, and Accuracy; the Accuracy
“bucket” is further subdivided into Customer Accuracy, Regulatory Accuracy, and Procedural
Accuracy “buckets.” They are defined as follows:
      •   Customer Accuracy: Giving the correct answer with the correct resolution. “Correct”
          is measured based upon the taxpayer receiving a correct response or resolution to his or
          her case or issue and, if appropriate, the CSR taking the necessary case actions or case
          disposition to provide this response or resolution. For the purpose of coding, reviewers
          do not take into consideration any additional IRS issues or procedures that do not
          directly affect the taxpayer’s issue or case. This measurement system was baselined on
          the toll-free telephone operations during the 2003 Filing Season. For Fiscal Year 2004,
          the IRS’ goal for Customer Accuracy was 90 percent.
      •   Regulatory Accuracy: Adhering to statutory/regulatory process requirements when
          making determinations on taxpayer accounts.
      •   Procedural Accuracy: Adhering to nonstatutory/nonregulatory internal process
          requirements.
1
  The period from January through mid-April when most individual income tax returns are filed.
2
  The four Applications (categories) monitored by the Treasury Inspector General for Tax Administration are shown
in Appendix VI.
                                                                                                        Page 20
    Toll-Free Account Assistance to Taxpayers Is Professional and Timely,
             and the Quality of Information Provided Has Improved

•   Professionalism: Promoting a positive image of the IRS by using effective
    communication techniques.
•   Timeliness: Resolving an issue in the most efficient manner through the use of proper
    workload management and time use techniques.




                                                                                  Page 21
           Toll-Free Account Assistance to Taxpayers Is Professional and Timely,
                    and the Quality of Information Provided Has Improved

                                                                                                   Appendix VI


      Comparison of Treasury Inspector General for Tax Administration and
             Internal Revenue Service Results of Monitored Calls in
    Wage and Investment Division Applications for Account Calls Product Lines


                                                                                               2
                                              1                         TIGTA              IRS
                                      TIGTA            TIGTA
                                                                      CUSTOMER          CUSTOMER
              APPLICATIONS            CALLS           CORRECT
                                                                      ACCURACY          ACCURACY
                                    MONITORED         ANSWERS
                                                                        RATE              RATE

                 Wage &
                Investment               12              11              92%               93%
                Procedural
                  Wage &
                 Investment
                                         20              17              85%               85%
             Individual Master
             File3 Balance Due
                Wage &
               Investment
             Non-Streamlined             2                0               0%               75%
               Installment
               Agreement4
             Individual Master
                                        230              198             86%               90%
               File Account
               Total/Overall
                                        264              226             86%               90%
                Accuracy
           Source: Results of the TIGTA and IRS independent reviews of four toll-free accounts
           category/Application calls monitored during the period April 12 through May 3, 2004,
           during the hours of 8:30 a.m. to 5:00 p.m. Central Standard Time, excluding weekends.




                                                                                                   Appendix VII
1
  Treasury Inspector General for Tax Administration.
2
  Internal Revenue Service.
3
  The IRS database that stores various types of taxpayer account information. This database includes individual,
business, and employee plans and exempt organizations data.
4
  An installment agreement is an arrangement set up between taxpayers and the IRS, whereby taxpayers make
partial payments until their balance of debt is paid in full. A non-streamlined installment agreement may be secured
where the total tax, penalties, and interest exceeds $25,000, may be paid off outside a 60-month period, and requires
in-depth financial verification.
                                                                                                            Page 22
Toll-Free Account Assistance to Taxpayers Is Professional and Timely,
         and the Quality of Information Provided Has Improved



           Management’s Response to the Draft Report




                                                                        Page 23
Toll-Free Account Assistance to Taxpayers Is Professional and Timely,
         and the Quality of Information Provided Has Improved




                                                                        Page 24
Toll-Free Account Assistance to Taxpayers Is Professional and Timely,
         and the Quality of Information Provided Has Improved




                                                                        Page 25
Toll-Free Account Assistance to Taxpayers Is Professional and Timely,
         and the Quality of Information Provided Has Improved




                                                                        Page 26
